\

CERTIFICATE OF SERVICE
I, Joshua Aguilar, hereby certify that I am over the age of
18 years old and that I am not party to this action. I am
employed in the County of Miami Dade, Florida. My
business address is 857 E. 41 Street, Hialeah, Florida,
33013.
On September 2372020,1 senfonly I unbound copy of the
Petition for Writ of Certiorari with the payment fee of
$300 via USPS Express mail
TRACKING NUMBER E-X 2go 8 5 5
pursuant to the Clerk’s special instructions by phone
whom instructed that no booklets were to be sent due to
the Supreme Court’s safety precautions for the Covid-19
Pandemic.
I also sent a copy of the Petition for Writ of Certiorari to
the Counsel of record listed below by-USPS Express Mail:
Paul S. Reichler
Andrew Z. Schwartz
FOLLEYHOAG, LLP
Seaport World Trade Center West
155 Seaport Boulevard
Boston, MA 02210-2600
TRACKING NUMBER
H U<S- .
MASETINELLI, P.A
Attorneys for Defendant
Eduardo Jose Callejas Callejas
2601S. Bayshore Drive, Suite 800
Miami, Florida 33133
gfernaadez@masetinelli. com; atinelli@masetinelli. com
TRACKING NUMBER
%<?3,
^FEDERAL I declare under penalty of perjury, under
the laws of the United States of America, that the
foregoing is true and correct.
Executed on September 24, 2020, in Hialeah, Florida.
Joshua Aguilar

